r
Supreme Court, U S------FILED

APR 2 7 2021

3Q-1oUp

OFFICE OF the Cl FPk-

No.

in tj)e

Supreme Court of tfje ®mteb States
ssa

VERONICA V. BADESCU,
Petitioner,
v.
CATALIN S. BADESCU,
Respondent.

On Petition for a Writ of Certiorari
to the Ohio Tenth District Court of Appeals

1

’r;

I

l
%
I

■. f

1

Petition for a Writ of Certiorari

Veronica V. Badescu
P.O. Box 86621
San Diego, CA 92138
(703) 994-3036
wbadescu@hotmail.com
Pro Se

} I

|

QUESTIONS PRESENTED
1. Precisely what constitutes a compelling state
interest justifying deprivation of a fit parent’s—and
primary caregiver’s—constitutional right to legal and
physical custody of her child in a divorce?
2. Is the “best interest of the child” standard, as
it pertains to Ohio Revised Code §§ 3109.03, 3109.04
and 3109.051, unconstitutionally vague and broad?
3. Does overzealous application of the state-law
principle that courts speak only through their journal
entries violate the Due Process Clause?

r.
11

DIRECTLY RELATED CASES
•

Badescu v. Badescu, No. 16DR002436, Franklin
County Ohio Court of Common Pleas, Division of
Domestic Relations and Juvenile Branch.
Judgment entered November 28, 2018. -

•

Badescu v. Badescu, No. 18AP000947, Ohio Tenth
District Court of Appeals, Judgment entered
September 3, 2020.

•

Badescu v. Badescu, No. 2020-1270, Ohio
Supreme Court. Jurisdiction declined December
29, 2020.

Ill

TABLE OF CONTENTS

Page(s)
QUESTIONS PRESENTED.....

i

DIRECTLY RELATED CASES

n

TABLE OF APPENDICES .

vi

TABLE OF AUTHORITIES

Vll

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS AND ORDERS BELOW

1

JURISDICTION..................................

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED........................

1

INTRODUCTION.....................

2

STATEMENT OF THE CASE

6

A. Legal Background...

7

B. Factual Background

9

C. Proceedings Below ..

11

1. Trial Court..........

11

2. Ohio Court of Appeals...........................

14

REASONS FOR GRANTING THE PETITION........16
I. CERTIORARI IS WARRANTED TO DETERMINE
WHAT CONSTITUTES A COMPELLING STATE
INTEREST JUSTIFYING DEPRIVATION OF A
FIT PARENT’S PARENTAL RIGHTS.
16
A. In finding that both parents are fit, the trial

(

IV

TABLE OF CONTENTS

Page(s)
court did not have a compelling state interest
16
to award sole custody to Father..........
B. Divorce does not make a parent unfit
C.

18

Fit parents, by definition, do not harm their
child/ren and their fundamental constitutional
rights may only be abrogated by the presence
of an objective, plainly articulated compelling
19
state interest

II. CERTIORARI IS WARRANTED TO REMEDY
ABUSES OF THE “BEST INTERESTS OF THE
CHILD” STANDARD.................................................... 20
A. Chapter 3109 - Ohio’s rendition of the Best
Interests of the Child standard - is
unconstitutionally vague.................................. 20
B. Revised Code 3109.04(F)(2)(d) is
unconstitutionally broad, allowing Ohio courts
to depart far from accepted and usual course of
judicial proceedings and infringe on
24
fundamental rights.
III.
OVERZEALOUS APPLICATION OF THE
STATE-LAW
PRINCIPLE
THAT
COURTS
SPEAK ONLY THROUGH THEIR JOURNAL
ENTRIES VIOLATES THE DUE PROCESS
26
CLAUSE.
A. The principle that courts speak only through
their journal entries does not permit a
reviewing court to ignore plain legal errors
made in pronouncements from the bench and

(

V

TABLE OF CONTENTS

Page(s)
not disavowed via subsequent journal entry. 26
CONCLUSION

29

I

VI

TABLE OF APPENDICES

Page(s)
Appendix A
Decision of Ohio Court of Appeals
la
(September 3, 2020)........................
Appendix B
Decision of Ohio Trial Court
26a
(November 28, 2018).............
Appendix C
Decision of Ohio Supreme Court Denying
Review
(December 29, 2020)
86a
Appendix D
Ohio Revised Code § 3109.03 | Equality of
parental
rights
and
responsibilities
..............................................................................87a
Appendix E
Allocating
Ohio Revised Code § 3109.04
parental rights and responsibilities for care
shared
parenting
of
children
......... 88a
Appendix F
Ohio Revised Code § 3109.051 | Parenting
time — companionship or visitation rights
........................................................................... 112a

Vll

TABLE OF AUTHORITIES
Page(s)
Cases
Ash v. Dean,
70 N.E.3d 987, 2016 Ohio 5589 (Ohio Ct. App.
2016)....................................................................... 16, 29
Bond v. De Rinaldis,
2016-Ohio-3342 .....................................................

29

Brown v. Brown,
2d Dist. No 2012-CA-40, 2013-Ohio-3456........

16

Buckeye Telesystem, Inc. v. MedCorp, Inc.,
6th Dist. Lucas No. L-05-1256, 2006-Ohio-3798...35
Burchard u. Garay,
42 Cal.3d 531, 539 (1986).....................

33

Clark v. Bayer,
32 Ohio St. 299 (1877)..........................

34

Connally u. General Construction Co.,
269 U.S. 385, 391 (1926)......................

30

Dunn v. Blumstein,
405 U.S. 330 (1972)...............................

28

Eisenstadt u. Baird,
405 U.S. 438 (1972)...............................

26

El-Badewi v. El-Badewi,
2007 Ohio 3800, (Ohio Ct. App. 2007)

14

Hawbecker v. Hawbecker,
5th Dist. Fairfield No. 16-CA-9, 2016-0hio-5740.16

Vlll

TABLE OF AUTHORITIES
Page(s)
Cases, continued
Hosack v. Hosack,
267 Neb. 934, 678 N.W.2d 746 (2004)

13

In Re Brayden James,
113 Ohio St. 3d 420, 2007 Ohio 2335 (Ohio 2007) 14
In re Guardianship of Hollins,
114 Ohio St.3d 434 (2007)

35

In re A.W.,
2020-0hio-1457.................

35

In re Pierson
No. 79AP-846, 1980 Ohio App. LEXIS 10987, at *4
(Ct. App. May 8, 1980)............................................ 34
Johnson v. Sloan,
154 Ohio St. 3d 476 (2018).....................................

35

Jones v. Jones,
542 N.W.2d 119 (S.D. 1996)...................................

12

Joyce v. Gen. Motors Corp.,
49 Ohio St.3d 93, 551 N.E.2d 172 (1990)...........

36

Karmasu v. Bendolf,
4th Dist. Scioto No. 93CA2160, 1994 Ohio App.
LEXIS 4545, at *8 (Sep. 28, 1994)........................

35

Lanzetta u. New Jersey,
306 U.S. 451 (1939).................................................

30

IX

TABLE OF AUTHORITIES
Page(s)
Cases, continued
Liston v. Liston,
2012 Ohio 3031 (Ohio Ct. App. 2012)

14

Loving v. Virginia,
388 U.S. 1 (1967)...................................

27

Marshall v. Marshall,
117 Ohio App. 3d 182 (1997)...............

30

Meyer v. Nebraska,
262 U.S. 390, 399, 401 (1923)............

25

Palmore v. Sidoti,
466 U.S. 429, 433 (1984).....................

12, 28

San Antonio Independent School Dist. v. Rodrigues,
411 U.S. 1 (1973)...
25
Santosky v. Kramer,
455 U.S. 745 (1982)

26

Schriner v. Schriner,
25 Neb. App. 165, 903 NW 2d 691 (2017)

13

Siferd v. Siferd,
2018 Ohio 3616 (Ohio Ct. App. 2018)......

14

State v. Blalock,
8th Dist. Cuyahoga No. 80599, 2002-Ohio-3637...35
State v. Collins,
No. 94CA1639, 1995 Ohio App. LEXIS 4409, at *25
(Ct. App. Sep. 22, 1995)
35

X

TABLE OF AUTHORITIES
Page(s)
Cases, continued
Troxel v. Granville,
530 U.S. 57 (2000)

25, 31

Statutes
28 U.S.C.§ 1257 ..............................

9

Ohio Revised Code Chapter 3109
§ 3109.04....................................

passim

§ 3109.051..................................

passim

§ 3109.03....................................

passim

Other Authorities
Brian L. Frye and Maybell Romero, The Right to
Unmarry: A Proposal, 69 Clev. St. L. Rev. 89 (2020)
10
Harrington Conner, Dana, Abuse and Discretion:
Evaluating Judicial Discretion in Custody Cases
Involving Violence Against Women (August 10,
2009). American University Journal of Gender,
Social Policy & the Law, Vol. 17, No. 2, 2009...... 12
Katharine Bartlett, Comparing Race and Sex
Discrimination in Custody Cases, 28 HOFSTRA L.
REV. 877, 880-81 (2000).................................
11
LaFrance, Arthur. (2008). Child Custody and
Relocation: A Constitutional Perspective.
University of Louisville Journal of Family Law. 34
...................................................................................10, 11

XI

TABLE OF AUTHORITIES
Page(s)
Other Authorities, continued
Laufer-Ukeles, Pamela. (2011). Custody through the
Eyes of the Child, Introduction to the 2011 Gilvary
Symposium, 36 University of Dayton Law Review
299 (2012)
11
Lynn Hecht Schafran, Gender and Justice: Florida
and the Nation, 42 FLA. L. REV. 181, 192 (1990) 11
Mary Becker, Maternal Feelings: Myth, Taboo, and
Child Custody, 1 S. CAL. REV. L. & WOMEN’S
STUD. 133, 139, 203 (1992)
11
Nancy D. Polikoff, Why are Mothers Losing: A Brief
Analysis of Criteria Used in Child Custody
Determination, 7 WOMEN’S RTS. L. REP. 235, 236
11
STATE BAR OF MICH., THE FINAL REPORT OF
THE MICHIGAN SUPREME COURT TASK
FORCE ON GENDER ISSUES IN THE COURTS
11
69 (1989)
Susan Beth Jacobs, The Hidden Gender Bias Behind
The Best Interest of the Child Standard in Custody
Decisions, 13 GA. ST. U. L. REV. 845, 849-50
12
(1997)
Rules
Ohio Local Rule 27 Model Parenting Time Schedule
22

1

PETITION FOR A WRIT OF CERTIORARI
Veronica V. Badescu respectfully petitions for a
writ of certiorari to review the judgment of the Ohio
Tenth District Court of Appeals in this case.

OPINIONS AND ORDERS BELOW
The Ohio Supreme Court’s decision declining to
accept review of the case is published at 159 N.E.3d
1162 and is reproduced at Pet. App. C'86a. The Ohio
Tenth District’s opinion is published at 20200hio4312 and is reproduced at Pet. App. B-26a. The
Franklin County, Ohio Court of Common Pleas’s
opinion is unpublished but is reproduced at Pet. App.
A-la.
JURISDICTION
The Ohio Supreme Court declined jurisdiction on
December 29, 2020. This Court has jurisdiction
pursuant to 28 U.S.C. § 1257.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourteenth Amendment to the United States
Constitution provides in relevant part: “No state shall
. . . deprive any person of life, liberty, or property,
without due process of law! nor deny to any person
within its jurisdiction the equal protection of the
laws.” The statutes involved are Ohio Revised Code
§§ 3109.03, 3109.04 and 3109.051. Pet. App. D, E and
F.

2

INTRODUCTION
This case presents fundamental questions of
parental rights and constitutional law: First,
precisely what constitutes a compelling state interest
justifying deprivation of a fit parent’s—and primary
caregiver’s—constitutional right to legal and physical
custody in a divorce? Second, is the “best interests of
the child” standard, as it pertains to Ohio Revised
Code
§§
3109.03,
3109.04
and
3109.051,
unconstitutionally vague and broad? Third, does
overzealous application of the state-law principle that
courts speak only through their journal entries
violate the Due Process Clause? These questions
present important issues on the adequacy of the
governing laws and procedures to protect the
fundamental parental rights, under the Fourteenth
Amendment to the United States Constitution, of a
relocating fit parent.
Our society has become increasingly more mobile,
resulting in a similar increase in relocation-related
child-custody
issues.
These
cases
implicate
constitutional interests of travel, autonomy, privacy,
home, marriage,1 and gender. The Constitution
protects the fundamental right to marry, but to
unmarry is costly and burdensome. Divorce laws
require the marriage to persist until child custody is
determined and other contentions are resolved.2 For
nearly five decades, the legal rule for resolving child1 LaFrance, Arthur. (2008). Child Custody and Relocation: A
Constitutional Perspective. University of Louisville Journal of
Family Law. 34.
2 Brian L. Frye and Maybell Romero, The Right to Unmarry: A
Proposal, 69 Clev. St. L. Rev. 89 (2020)

3

custody disputes has been the Best-Interests-of-the
Child standard. The vagueness and indeterminacy of
this standard and the misplaced faith that rests in
the ability or expertise of divorce courts, mental
health professionals and guardians ad litem to
reliably predict what is truly best for the child
regularly impinges upon the fundamental rights of
thousands of parents across the United States each
year. The nature of the divorce proceedings is
adversarial and, in many instances, inhuman. Some
courts, as here, employ the cruelest tool of imposing
Hobson’s choice between livelihood and parenthood.
This is especially devastating to women who are
restarting their careers after delaying career
advancement for the marriage and serving as the
primary caregiver for the child/ren3 — because they
3 Laufer-Ukeles, Pamela. (2011). Custody through the Eyes of
the Child, Introduction to the 2011 Gilvary Symposium, 36
University of Dayton Law Review 299 (2012) (Symposium
Edition) [citing Nancy D. Polikoff, Why are Mothers Losing: A
Brief Analysis of Criteria Used in Child Custody Determination,
7 WOMEN’S RTS. L. REP. 235, 236; Lynn Hecht Schafran,
Gender and Justice: Florida and the Nation, 42 FLA. L. REV.
181, 192 (1990); Katharine Bartlett, Comparing Race and Sex
Discrimination in Custody Cases, 28 HOFSTRA L. REV. 877,
880-81 (2000); Mary Becker, Maternal Feelings: Myth, Taboo,
and Child Custody, 1 S. CAL. REV. L. & WOMEN’S STUD. 133,
139, 203 (1992); STATE BAR OF MICH., THE FINAL REPORT
OF THE MICHIGAN SUPREME COURT TASK FORCE ON
GENDER ISSUES IN THE COURTS 69 (1989), available at
http://www.michbar.org/publications/msword/REG-Rpt2.doc
(finding that sex stereotypes influence judges to the
disadvantage of women seeking custody of their children, often
granting custody to minimally interested fathers even when the
mother has been the primary caregiver for years, perceiving
mothers who focus on their careers as less fit parents than
fathers who do the same and evaluate women’s social interests
and finances more critically than they do men); Susan Beth
Jacobs, The Hidden Gender Bias Behind The Best Interest of
the Child Standard in Custody Decisions, 13 GA. ST. U. L.

4

face a higher risk for both judicial gender and class
bias4; sex stereotypes can influence judges in
perceiving mothers who focus on their career as
“selfish”—willing to place their own needs before the
needs of their children—compared to fathers who do
the same or more.5 Yet at the first tick of the divorce
clock, generally, women do not earn as much or have
postponed career advancement during marriage and
often find themselves without adequate resources for
legal representation or cannot compete in the hidden
economic factors in the analysis of the Best Interests
of the Child factors in determining who should be the
legal custodian and school residential parent—even
when both parents are deemed fit. Compounding the
issues is when domestic abuse is involved. Even
when moderate, physical and emotional abuse is
often not given due consideration but its misused
“counterpart,” parental alienation theory, creeps thru
the proceedings and influences the “friendly parent”
factors of the best interests standard that further
undermine the rights of abused parents, relocating
and nonrelocating, alike. In the relocation context,
the move is viewed as failure to foster a relationship
with the other parent and/or that the proposal of a
REV. 845, 849-50 (1997) (“Many judges consider present income,
future earning potential, housing, maintenance of the family
home, and other marital advantages in making custody
determinations. This has had a devastating effect on women,
who generally do not earn as much as men because of disparity
in wages, and because of focus on raising children instead of
advancing career opportunities.”); Jones v. Jones, 542 N.W.2d
119 (S.D. 1996). But see Palmore v. Sidoti, 466 U.S. 429 (1984).]
4 Harrington Conner, Dana, Abuse and Discretion: Evaluating
Judicial Discretion in Custody Cases Involving Violence Against
Women (August 10, 2009). American University Journal of
Gender, Social Policy & the Law, Vol. 17, No. 2, 2009
5 PI. Dep. at 103-104; Ex. R-2,17,18; Tr. at 279280,737,950,953,1031.

5
parallel parenting plan, which is appropriate in highconflict cases, is viewed as rejection of shared
parenting, even when the home-state parent readily
admits to not having any original shared parental
intent to remain in the local community or provide
conflicting testimonies of any long-term plans to
remain there post-divorce>' or even when the homestate parent plainly agrees to the parallel parenting
plan. Divorce courts often fail to recognize the
fundamental right of familial association and
override the relocating primary caregiver’s right
based on the concern that the child's relationship
with the community or even the house in which he or
she was raised is too strong to permit adjustment to a
new community. And even when the court finds that
a child is well-adjusted in both the home-state and
relocated parents’ communities or that the child could
benefit from the flexibilities in the relocated parent’s
schools and community setting, the presentation of
the advantages of the move, which the statutes
require, is viewed as failure of the relocating parent
to acknowledge the home-state parent and his
community as an ‘equal’ and is penalized for such a
mild ‘offense’ and factors into the award of sole legal
and residential custody to the home-state parent.
A few appellate courts recognize that the subject of
custody and welfare of children is fundamentally
important and should receive close scrutiny and
review the record de novo.6 But here, where a trial
court erred as a matter of law, the court of appeals
abused and distorted the principle that “a court
speaks only through its journal entries”, by
concluding that oral pronouncements and other acts
6 See, e.g., Hosack v. Hosack, 267 Neb. 934, 678 N.W.2d 746
(2004); Schriner v. Schriner, 25 Neb. App. 165, 903 NW 2d 691
(2017)

6

by a trial court are unreviewable, leaving no true
avenue for relief, and falsehoods and half-truths
unchecked.
Each year, billions of dollars pour into the family
court system instead of our children and instead of
going into building the infrastructure that would
make gender equality a reality. It is a daily
occurrence that divorcing and fit parents, many of
whom end up in bankruptcy, are required to fight and
are systematically deprived of their fundamental
right to parenthood. Furthermore, a parent exercising
the right to move will suffer perhaps greater risk of
losing custody than when the parent has caused a
relationship to fracture through infidelity,7 alcohol,8
drug or gambling addiction,9 or even domestic
violence and child abuse.10 It is for these reasons, as
will be explained in more detail, that this Court must
intervene.

STATEMENT OF THE CASE
This is an appeal by Veronica V. Badescu
(“Veronica”) from a 2018 Order of Custody granting
Catalin S. Badescu (“Catalin”) sole legal and physical
custody of the parties’ minor son, M.B. This case
involved parental relocation prior to finality of
divorce or any grant of permanent custody. It raises
important constitutional questions concerning the
showing that must be made in order for the state to
abridge a relocated parent’s fundamental parental
rights, whether Ohio’s best-interest-of-the-child test
7 ELBadewi v. El-Badewi, 2007 Ohio 3800, (Ohio Ct. App. 2007)
8 Liston v. Liston, 2012 Ohio 3031 (Ohio Ct. App. 2012)
9 Siferd v. Siferd, 2018 Ohio 3616 (Ohio Ct. App. 2018)
10 In Re Brayden Janies, 113 Ohio St. 3d 420 (2007)

7

(the “Best Interest” test) is a sufficient mechanism for
protecting those rights, and whether that test is
unconstitutionally vague and broad.
Veronica is proceeding pro se and respectfully
requests that this Court construe this petition
liberally and provide an opportunity to address any
possible deficiencies prior to any denial.
A. Legal Background
1. Chapter 3109 of the Ohio Revised Code
governs issues related to children. The sections
relevant to this case are §3109.03—Equality of
parental rights and responsibilities! §3109.04—
Allocating parental rights and responsibilities for care
shared parenting! and §3109.051
of children
Parenting time - companionship or visitation rights.
Sections 3109.04 and 3109.051 instruct parents
who have been awarded either a majority or an equal
share of parenting time on how to seek to relocate
with their children. But it provides no procedure for
parents to whom parenting time has not yet been
allocated. While § 3109.03 purports to place parents
on “equal footing,” in reality its text conflicts with
that purpose, as it implicitly places the burden of
proof upon the parent requesting to modify the
existing allocation of parental rights and visitation
through its requirement that “[t]he harm likely to be
caused by a change of environment is outweighed by
the advantages of the change of environment to the
child.” § 3109.04(E)(l)(a)(iii)
2. Embedded in § 3109.04(F) are the Best
Interest factors used to determine custody, whether
pre-decree or post-decree. These factors include: the
geographic locations of the parents, § 3109.04(F)(2)(d)!
which parent is likely to honor parenting time rights
and encourage contact between the child and the

8

other parent, § 3109.04(F)(2)(b) and § 3109.04(F)(1)(f);
and the child’s adjustment to the child’s home, school,
Section
and community, § 3109.04(F)(1)(d).
3109.04(F)(3) expressly forbids the court from giving
preference to a parent because of that parent's
financial status or condition. But due to the broadness
and effectively limitless considerations that §
3109.04(F) permits and the condition of proving the
advantages of a change in environment imposed by §
3109.04(E)(l)(a)(iii), the economic condition11 of a
parent is inevitably considered in the context of
relocation, especially when the reason for the move is
employment.
3. The Ohio trial court’s Local Rule 27 is often
the default parenting schedule based on the
geographic proximity of parents. Ohio is the only state
that prescribes visitation “guidelines” based on a 90mile distance between parents. The Tenth District
precedent, Ash v. Dean, 70 N.E.3d 987, 2016 Ohio
5589 (Ohio Ct. App. 2016), held that a conditional
custody
arrangement
does
not violate
the
constitutional rights to travel of the relocating parent
so long as the trial court determines that the child’s
best interests is to remain in the county where they
lived (citing Brown v. Brown, 2d Dist. No 2012-CA40, 2013-Ohio-3456) and so long as a conditional
custody arrangement only attaches a consequence to a
parent’s relocation outside of a specified area. It also
held that the right to own property does not
necessarily equate to the right to live where one
chooses.
4. While this Court has recognized the parental
11 This is also true for the non-relocation case. See Hawbecker v.
Hawbecker, 5th Dist. Fairfield No. 16-CA-9, 2016-0hio-5740.
(GAL here has a history of improperly emphasizing economic
means as a basis for awarding parental rights.)

9
rights of single, unmarried, and married parents, the
rights of divorcing and divorced parents are left
unprotected. The Best Interest standard functions as
a penal code that strips the fundamental right of a
relocating fit parent in a divorce and child-custody
proceeding.
B. Factual Background
The parties married in 2010 and resided in
Virginia, where both were employed. Pet. App. B_28a.
In 2011, Catalin obtained a position in Dayton, Ohio!
Veronica gave up her job and seniority with the
federal government, and the couple moved to
Centerville, Ohio, to accommodate Catalin’s career
move. Id. The move was purely for professional
reasons; neither Veronica nor Catalin had any other
ties to Ohio.
Due to a federal hiring freeze and the general
economic temperature in 2011, Veronica was
unsuccessful at obtaining a job. In 2012, the couple
decided that she would go back to school in
Columbus, Ohio, where she was admitted into
graduate school. The parties moved to Galloway,
Ohio, as a compromise between Veronica’s commute
to school and Catalin’s commute to work. Tr. at 235.
Catalin thought it was justified to buy and live in a
house for three years while Veronica was in school.
PI. Dep. at 62, 258. They moved again to Dublin,
Ohio, just before their only child, M.B., was born in
2015. The parties’ marriage began to deteriorate
primarily due to disagreement regarding the house
purchase and renovations, and conflicts in parenting
styles of the newborn. The marital differences became
intractable, and the relationship became abusive,
culminating in Catalin kicking Veronica and
breaking her tailbone. Tr. at 529-530, Pet. App. B52a.

10
Veronica cared for M.B. full time during the first
months of his life. Due to the marital strife, she
decided to cut her studies short and began looking for
a job. She again had difficulties finding reasonable
employment for various reasons including being
asked whether it would be difficult to go back to work
with a nine-month-old or concerns that she would
have a long commute (from Dublin). Tr. at 948, Def.
Dep. at 85-86. Catalin made overtures on potential
relocation to the West Coast. PI. Dep. at 188-189, Tr.
at 576. After Veronica widened her job search to
areas with a larger industry base and where she has
family and friends, she received a formal offer of
employment for a position in her field in San Diego,
California, in April 2016.
She informed Catalin of the offer. He initially
expressed interest in moving to San Diego but
ultimately decided that his salary and lifestyle
expectations may not be met. Ex. Z-l, Z-2, Tr. at 843.
The couple first sought to mediate the termination of
their marriage but, ultimately, were unable to reach
agreement regarding the shared parenting of M.B.
because Catalin required that Veronica’s family that
she pre-agree that he would be the legal custodian.
Tr. at 973.
On June 20, 2016, Catalin filed a complaint in
Franklin County seeking divorce from Veronica and
custody of M.B. At a hearing on July 14, 2016, the
magistrate permitted Veronica to move to San Diego
along with M.B. but also granted Catalin’s request for
a rotating monthly parenting schedule. During the
course of the divorce and custody proceedings—while
the 30-day rotation was in place—Veronica
established roots with her son in California: She
enrolled M.B. in preschool, and she and M.B. enjoyed
close relationships with, and support from, family

11
and friends.
C. Proceedings Below
1. Trial Court
Pretrial hearings were held on October 28, 2016
and March 6, 2017. The trial court found, regarding
which parent was most suitable for primary custody,
that it was a “flip of a coin between the two
[parents]...because both are reportedly very good
parents.” March 6, 2017 Pretrial transcript at 20.
The court emphasized that, concerning the dispute
over custody of M.B., Veronica’s decision to move to
San Diego meant that, from the outset, she bore a
heavy burden to convince the court that she was
worthy of custody despite her move:
“[T]he burden is on [Veronica] to
demonstrate why she’s upsetting the
proverbial applecart . . . and to have to show
me that she absolutely was not going to be
able to pursue a career before I even get to the
step if I’m going to allow a residential parent
to be outside of this jurisdiction. . ..”
October 28, 2016 Pretrial Tr. at 11, 14 (emphasis
added).
The court further indicated that it would
delve into the motivations for Veronica’s move,
apparently in order to assess the degree of
penalty that should be imposed upon her for
moving:
“[I]t’s family decisions that I'm going to look
at. . .
[Y]ou have a young child who isn’t
enmeshed into the community . . . so . . .
motivation for the move, as it were, is the first
place I’m going to start looking at. . . [T]he
other things you have to look at is is [sic] there

12
availability for your client to move closer
there.” Id. at 12, 13.
The court noted to the guardian ad liteml
....you’re saying ... is that if you had a
vocational evaluation that might give you
some hope or indication, whatever, that she
could be employed here, you might consider
naming her residential parent for as long as
she’s in Franklin County to try to get her to
move back.
October 28, 2016 Pretrial Tr. at 17 (emphasis
added).
Dr. David Lowenstein, the court-appointed
psychologist, also stated that “if the situation was
reversed where Mother was living in Columbus,
...[he] would say Veronica should be the residential
parent,”. . . Tr. at 1030, Psych. Dep. at 77.
With these impermissible standards in place, trial
proceeded on the notion that Veronica had the burden
to establish her move was necessary, The
investigation of necessity for Veronica’s career delved
into specifics such as the reasonableness of her pay
expectations, economic advantage, and whether these
expectations balanced the perceived higher cost of
living in CA, whether she sufficiently applied to jobs
in Ohio. Def. Dep. at 180, GAL Rep. at 23-24; Tr. at
903, 950, 958, 978.
On the other hand, Catalin was not required to, nor
did he, produce any job applications outside of Ohio to
support his assertion that he could not locate work
acceptable to him on the west coast. OppB at 5.
Catalin’s primary stated reason for resisting a move
is because he was “comfortable” in his job and
believed that he would be stepping down to a lower

13
pay if he moved. PL Dep. at 103-104; Ex. R-2; Tr. at
737.
The court “fully recognizetd] that other statutory
factors favor [M.B.] primarily residing with Veronica
[such as school and presence of extended family].” Tr.
at 1015, also Pet. App. B-40a-43a. But the court
unreasonably found that “Veronica’s presentation is
notable as it is evident that in [her] mind, California
living and the opportunities it avails is far superior
than life in Ohio could provide for M.B.” and to
Catalin’s advantage, his “home is more familiar to
M.B. and is filled with neighbors and children...he
has known his entire life.” Pet. App. B-42a-43a.
(emphasis added) The overemphasis and undue
weight on father’s neighborhood is incorrect because
the rotating 30day temporary parenting order began
when M.B. was one year old and had been spending
equal time in San Diego.
Ultimately, the trial court found that Veronica’s
decision to live out of state was determinative. The
court faulted Veronica for having “no intentions of
leaving” California and dismissed Veronica’s
arguments that “her move across country should not
be ‘held against’ her in [M.B.’s] custodial
determination” as mere “rationalization.” Id. at 34a.
And the court faulted Veronica for “never waver [ing]
in her intent to move,” id. at 35a, and concluded that
she had been selfish in accepting the position in San
Diego, id. at 57a. Ohio is where the parties had made
“parental decisions to raise their child” and therefore
the court could “Onot agree [that] Mother’s decision to
accept a position across the country from the child’s
Father placed the child’s best interest above her own
career ambitions.” id. The court found that Veronica
should have just stayed in Ohio because “it is evident
that Plaintiff controlled the family household

14

finances... this is not a case that [she]...would have
been economically disenfranchised during the course
of the divorce, ...even if she could not have found a
job she could of availed herself to the court process
in requesting temporary orders of support and/or
assistance with living expenses during the
pendency of the case.” Id.
In reaching this decision, the court disregarded
Catalin’s testimony that he was comfortable with
Veronica’s proposed parallel parenting plan which (l)
provided allocated decision rights (rather than one
parent being deprived of all decision rights) and (2)
stated that Ohio would continue to be the home state
as long as Catalin lives in Ohio and (3) provided more
flexible/longer visitations. Tr, at 503-507. Instead, the
court ordered ‘Local Rule 27 Model Parenting Time
Schedule for Parents Travelling Over 90 Miles One
Way — without a requirement that Catalin maintain
his present residence in order to retain sole custody.
Pet. App. B'66a and Ex. 2B (See also March 6, 2017
Pretrial at 20.) The court also issued a ‘move back
scenario’ parenting time schedule should parents be
under 90 miles apart. Currently, the parenting time
order is for M.B. to live with Catalin for the entirety
of the school year, with only brief visits with Veronica
at Christmas and over spring break and half of
summer break.
2. Ohio Court of Appeals
On appeal to the Tenth District of Ohio, Veronica
raised two assignments of erroE
[I.] The trial court erred as a matter of law
and abused its discretion by placing the initial
burden on Mother to demonstrate the
necessity of move and placing unfairly
prejudicial weight on Mother's decision to live

15

out of state, in violation of R.C. § 3109.03.
[II.] The trial court erred in granting sole
custody to Father by failing to assess the best
interest of the child properly under Ohio law,
including without undue emphasis on
Mother's decision to move out of state.
Pet. App. A-4a.
Veronica also argued under the second assignment
of error that the trial court erred and committed plain
error12 in admitting Catalin’s video recordings into
evidence which was in derogation of the criminal
statutory of California. The “cherry picked” recordings
allegedly show that Veronica prevents quality Skype
sessions were misleading. Catalin also submitted
recordings of himself while M.B. and Veronica were
interacting which unfairly influenced the court in
concluding that he “is the most cognizant to share
love, affection and contact with the other parent” Pet.
App. B'51a. Veronica argued that the videos violating
two-party-consent law skewed the “friendly parent
factors” in favor of Catalin. Ex. 28
A three-judge panel of the court of appeals
considered the two assignments together and
affirmed. The court of appeals concluded, essentially,
that the trial court’s above-quoted pronouncements
from the bench—that it would apply an impermissible
standard to, and place in impermissible burden on,
Veronica—could be ignored in light of the principle
that “a court speaks only through its journal entries,
and not through mere oral pronouncements.” Pet.
App. B'8a at t 12. And it concluded that, R.C. 3109.03
12 Though her trial counsel failed to object to the videos,
Veronica brought to the trial court’s attention that California
“hats] D different rulels] about recording other people.” Tr. at
610

16

notwithstanding, “the trial court was required to
consider the circumstances regarding [Veronica’s]
move to San Diego.” Id. at ^ 16. This misguided
conclusion was further buttressed by an erroneous
reading of R.C. 3109.04(F)(2)(d), which merely
requires a trial court to consider the “geographic
proximity” of the parents when assessing whether
shared parenting is in the child’s best interest. Thus,
the court of appeals concluded, contrary to law and
fact, that there was “no indication the trial court
placed a burden on [Veronica] to demonstrate the
necessity of moving or placed unfairly prejudicial
weight on her decision to live out of state.” Id. at H 34.
The Supreme Court of Ohio declined jurisdictional
review on December 29, 2020. This petition follows.

REASONS FOR GRANTING THE PETITION
The reasons provided below are of nationwide
importance and involved substantial constitutional
challenges.13 The states are also divided on the
ability to protect the constitutional rights of the
relocating parent.
I.

CERTIORARI
IS
WARRANTED
TO
DETERMINE WHAT CONSTITUTES A
STATE
INTEREST
COMPELLING
JUSTIFYING DEPRIVATION OF A FIT
PARENT’S PARENTAL RIGHTS.
A. In finding that both parents are fit, the

13 The issues involved are of public and great general interest,
(e.g. see Palmer, Ron and Sherry Palmer. Not In the Child's
Best Interest^ How Divorce Courts get it all Wrong and How the
Constitution can fix it. 2013; ACTION OHIO Coalition For
Battered Women; Ohio NOW ELF)

17
trial court did not have a compelling
state interest to award sole custody to
Father.
1. The text of the Fourteenth Amendment provides
that: “No state shall . . . deprive any person of life,
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.”
In recognition of parental rights as one of the
oldest fundamental liberty interests, this Court in
Troxel v. Granville, 530 U.S. 57 (2000), enumerated
extensive precedents which held that the Due Process
Clause of the Fourteenth Amendment protects the
fundamental right of parents to make decisions
concerning the care, custody, and control of their
children. This includes the right to “establish a home
and bring up children” and “to control the education
of their own.” Meyer v. Nebraska, 262 U.S. 390, 399,
401 (1923).
2. In San Antonio Independent School Dist. v.
Rodrigues, 411 U.S. 1 (1973), this Court found that
“strict judicial scrutiny [is] appropriate in reviewing
that
interfere
with
legislative
judgments
fundamental constitutional rights or that involve
suspect classifications.” Furthermore, “strict scrutiny
means that the State’s system is not entitled to the
usual presumption of validity, that the State rather
than the complainants must carry a ‘heavy burden of
justification,’ that the State must demonstrate that
its . . . system has been structured with ‘precision’
and is ‘tailored’ narrowly to serve legitimate
objectives, and that it has selected the ‘less drastic
means’ for effectuating its objectives.”
Further, only after conducting a fitness hearing
which meets due process standards and after

18
demonstrating that a parent’s decision puts the
child’s health and safety in imminent danger, can the
State be the parent of last resort. “When the State
moves to destroy weakened familial bonds, it must
provide the parents with fundamentally fair
procedures.” Santosky v. Kramer, 455 U.S. 745
(1982)
3. In this case, the trial court, GAL and
psychologist repeatedly and unanimously concluded
that both parents are fit and good parents. Thus, the
decision of the trial court to strip Veronica of her
fundamental rights as a parent fails the first prong of
Strict Scrutiny which requires the State to have a
compelling interest in the custody determination. A
divorce court must subordinate and treat de minimis
its beliefs on this matter to those of the fit parent.
B. Divorce does not make a parent unfit.
1. While this Court has long addressed that both
married and unmarried persons are accorded the
same equal protection rights, and that “rights of the
individual...must be the same for the unmarried and
the married alike,” this Court has not yet explicitly
addressed the constitutional rights of both parents
upon the dissolution of marriage.
Eisenstadt v.
Baird, 405 U.S. 438 (1972). However, for this Court’s
precedents to stand, it is reasonable that the same
equal protection extend to both parents in a divorce
because “fundamental liberty interests of natural
parents....does not simply evaporate” when the union
is dissolved, not even when “parents have not been
model parents or have lost temporary custody of their
child to the State.” Santosky v. Kramer, 455 U.S. 745
(1982).
2. For a divorce court to deprive a fit parent
custody of her/his child is to suggest that a divorce

19

process simply declares a fit parent unfit, and that
the state has carte blanche authority to deprive
divorced parents of their fundamental liberties. This
line of reasoning cannot stand. Divorced parents are
and have been subject to prejudice, social and legal
stigma, and hostility. It is a mark of shame especially for mothers
as a sign of either
psychological failure or a selfish failure to consider
her child’s need.
This Court must recognize that
divorced parents as a suspect class deserving of
Constitutional
protection.
If
“[ujnder
our
Constitution, the freedom to marry, or not marry....
cannot be infringed by the State,” the same must be
said for the freedom to unmarry. Loving v. Virginia,
388 U.S. 1 (1967).
C. Fit parents, by definition, do not harm
their child/ren and their fundamental
constitutional rights may only be
abrogated by the presence of an
objective, plainly articulated compelling
state interest.
1. If there is harm to a child in divorce, the amount
of harm that warrants coercive intrusion by the State
must be properly and explicitly articulated. Without
threat of State intrusion, fit married parents often
disagree and fight bitterly on the proper way to raise
a child. It is irreconcilable that when these same
disputes are before a divorce court, one fit parent’s
basic civil right may vanish.
2. When fundamental liberty is at issue, the
parameters within which the State may intervene to
deprive an individual of that liberty must be precisely
defined.
And in no circumstances should the
determination of whether a compelling state interest
justifying such a curtailment of liberty is present rest
entirely in the subjective judgment of a divorce court.

20

There is no amount of “experience” or personal
“wisdom”
as was used by the trier of fact in this
case in justifying its determination14*15
which can
guarantee that disputes will be reduced by a sole
custody award nor close-proximity of parents would
ascertain a child would grow up to be a successful
adult. March 6, 2017 Pretrial Tr. at 20., App. B-21a.
3. Whether conflicts between parents or the
distance between parents would prove that shared
parenting to be unworkable, the state may only
impinge on either fit parent’s parental rights via the
“least restrictive means” available. Dunn v.
Blumstein, 405 U.S. 330 (1972). The least restrictive
means available to the court here was to grant
Veronica’s proposed parallel parenting plan. Instead,
the trial court overrode both parents’ apparent
acceptance of the parallel parenting and ordered
shorter visitations in the non-custodial home due to
concerns that the “kid will literally live a divided life
that he won’t be able to do sports with the people he
goes to school with.” March 6, 2017 Pretrial at 29.

II. CERTIORARI
IS
WARRANTED
TO
REMEDY
ABUSES
OF
THE
“BEST
INTERESTS OF THE CHILD” STANDARD.
A.

Chapter 3109 - Ohio’s rendition of the
Best Interests of the Child standard - is
unconstitutionally vague.

1. “The goal of granting custody based on the best
interests of the child is indisputably a substantial
14 March 6, 2017 Pretrial at 20; App. B-21a
15 On the contrary, numerous studies show that divorce courts
are not knowledgeable of the dynamics of abuse and caters to
abusers, (e.g. see https://escholarship.org/uc/item/31z272jl)

21
governmental interest for purposes of the Equal
Protection Clause.” Palmore v. Sidoti, 466 U.S. 429,
433 (1984). But it is constitutionally impermissible
wield that “best interest” as a punitive weapon in
divorce proceedings.
2. Ohio Revised Code § 3109.03 ostensibly places
parents on “equal footing,” but it is vague and
impossible to apply to relocation cases. First, there is
no procedure for relocation at the time of initial
custody determination. Second, § 3109.04 and §
3109.051 place a burden of proof on the parent
requesting to modify the parental rights and
visitation. In the Tenth District of Ohio, custody
determination after relocation has commenced is
relatively rare16 compared to relocation after the
divorce has been finalized. Nevertheless, both pre­
decree and post-decree relocation cases are ostensibly
subject to the same test: § 3109.04, the best-interestsof-the-child factors.
This case can be viewed as affected by both the
pre-decree and post-decree issues. For the case of pre­
decree relocation, the GAL rationalized: “you take a
job and leave without having that issue [being legally
married and still living in the marital residence]
resolved with finality, that’s the problem.” Tr. at
1022.
If a parent who has not yet been allocated
parenting time may not seek to relocate with a child,
then we are left with the unreasonable conclusion
that parents must first resolve the allocation of
parenting time and then address the relocation.
That would require the relocating parent to forgo
16 The meager caselaw that exists suggests mothers are rarely
permitted to leave the county, and an implicit burden is placed
on the relocating parent in an initial custody determination. See
Ash v. Dean, 2016-Ohkr5589; Bond v. De Rinaldis, 2016-Ohio3342.

22

employment which is the very reason she is
requesting permission to relocate and leaves her at
the losing end of the best-interests analysis.
As discussed above, Catalin submitted a
parenting plan that spelled out his possible relocation
weighed little in the trial court’s decision.
Furthermore, the court did not place a conditional
custody condition on Catalin. Legal custody would
also remain unchanged regardless of the distance of
the parents. So, for the case of post-decree, § 3109.051
becomes irreconcilable with the Constitution when
the burden of proof is placed on a relocated primary
caregiver parent during the initial custody
determination, but modification procedures favor the
home-state parent in a future relocation. Ohio case
law also favors preserving the status quo in
modification cases. In other words, the system is
skewed against the relocating mother from top to
bottom.
If the trial court viewed the case as a
modification of the status quo with Veronica as the
primary caregiver and “analogize [d] this situation to
a custody modification”, at worst the custody
determination should have been a form of shared
parenting. Marshall v. Marshall, 117 Ohio App. 3d
182 (1997).
3. Even if we are to accept Chapter 3109 as a penal
code, this Court has held that “No one may be
required at peril of life, liberty or property to
speculate as to the meaning of penal statutes. All are
entitled to be informed as to what the State
commands or forbids.” Lanzetta v. New Jersey, 306
U.S. 451 (1939) "That the terms of a penal statute
creating a new offense must be sufficiently explicit to
inform those who are subject to it what conduct on
their part will render them liable to its penalties, is a

23

r

well-recognized requirement, consonant alike with
ordinary notions of fair play and the settled rules of
law. And a statute which either forbids or requires
the doing of an act in terms so vague that men of
common intelligence must necessarily guess at its
meaning and differ as to its application, violates the
first essential of due process of law." Connally v.
General Construction Co., 269 U.S. 385, 391 (1926).
On one hand, the trial court insisted that parents
should “get closer together” and stated how it would
likely rule regardless of what is presented at trial:
“[Y]ou can try your case and put on all of
your story about how you got to where you
got... and we could still be back here in four
years, three years because times have changed
one way or the other...What...I will do if the
two of you are living in two different places
and I decide that I’m not going to put an Ash v
Dean limitation...I will put into place a
schedule should the parties live in closer
proximity to each other...” March 6, 2017
Pretrial at 19-20
On the other hand, Veronica was required to prove
the benefits and advantages of the relocation but
punished for it, including quality of life factors:
“Defendant’s presentation is notable as it is
evident that in Defendant's mind, California
living and the opportunities it avails is far
superior than [what] life in Ohio could provide
for [M.B.]. In fact, both parties’ residences
have positives that support their contentions
and that would support [M.B.’s] best interest.
Pet. App. B-42a.
The vagueness of Chapter 3109 entraps fit parents
into ‘offenses’ that factor in the deprivation of

24
custody.
B.

Revised
Code
3109.04(F)(2)(d)
is
unconstitutionally broad, allowing Ohio
courts to depart far from accepted and
usual course of judicial proceedings and
infringe on fundamental rights.

1. This Court has recognized the overbreadth of
similar best'interests'of’the-child statutes in Troxel
v. Granville, 530 U.S. 57. Here, the broad formulation
of §3109.04
allows for its insidious
and
unconstitutional applications.
2. Section 3109.03 requires that courts treat
parents living apart from one another—i.e., parents
living in separate geographic locations—equally when
it comes to allocation of parental rights^
When husband and wife are living separate
and apart from each other, or are divorced,
and the question as to the parental rights and
responsibilities for the care of their children
and the place of residence and legal custodian
of their children is brought before a court of
competent jurisdiction, they shall stand upon
an equality as to the parental rights and
responsibilities for the care of their children
and the place of residence and legal custodian
of their children, so far as parenthood is
involved.
Here, the record is replete with evidence that the
trial court disregarded the statute and gave
improper, prejudicial weight to Veronica’s relocation.
But the court of appeals sought to justify the trial
court’s departure from the plain mandate of § 3109.03
by asserting that § 3109.04(F)(2)(d) actually required
the trial court to parse “the circumstances regarding
[Veronica’s] move to San Diego.” Pet. App. B‘55a.

25

But § 3109.04(F)(2)(d) merely provides that, “[i]n
determining whether shared parenting is in the best
interest of [a] child[],” a trial court must consider
“[t]he geographic proximity of the parents to each
other, as the proximity relates to the practical
considerations of shared parenting.” It says nothing
regarding any inquiry into how the parents reached
their respective geographic positions and provides no
license to burden one parent or the other with the
task of justifying his or her location before being
considered for custody.
In other words,
§ 3109.04(F)(2)(d) permits only consideration oh the
“practical” effects of the current geographic reality; it
does not provide a trial court with carte blanche to
conduct an after-the-fact, normative probe of a
parent’s decision to take up residence in a specific
geographic locale.
3. Section 3109.04(F)(3) expressly forbids the court
from giving preference to a parent because of that
parent’s financial status or condition. But the
erroneous reading of § 3109.04(F)(2)(d) and an
improper fixation on Catalin’s locational “stability”
and economic means and Veronica’s decision to move
out of state unfairly prejudiced the outcome of the
decision. These sorts of decision are “discriminatory,”
“cruel,” and “den[y] full humanity to women.”
Burchard v. Garay, 42 Cal.3d 531, 539 (1986).
4. As applied by the Ohio courts here,
•

Section 3109.04(F)(2)(d) nullifies § 3109.03’s
mandate that no parent should be penalized for
“living separate and apart” from another.

•

Section 3109.04(F)(2)(d) nullifies § 3109.04(F)(3)’s
mandate that no preference should be given to a
parent because of financial status through inquiry
and requirement of special justification for a

26

parent’s decision to “liv[e] separate and apart”
from the other.
When it was enacted, § 3109.03 represented a
paradigm shift in the law. The common law had
provided that “the father, if a suitable person, had a
paramount right to the custody of his children, except
with respect to those of such tender years as to
require a mother’s personal care, and was prima facie
entitled to custody of his children, even though the
welfare of the children was of prime importance.” In
re Pierson, No. 79AP-846, 1980 Ohio App. LEXIS
10987, at *4 (Ct. App. May 8, 1980) (citing Clark v.
Bayer, 32 Ohio St. 299 (1877)). Section 3109.03 is a
drastic departure from this traditional system, and
places both parents on an equal footing. There can be
little doubt that, in situations where relational strife
has caused parents to separate or divorce, the
mother—for financial reasons or otherwise—is the
party more likely to be forced to relocate in an
attempt to ameliorate the negative effects of the
separation. Placing the burden on the relocated
mother to “justify” her move thus flies in the face of
§ 3109.03 and effects a de facto reversion, in part, to
the constitutionally impermissible common-law
system.

III. OVERZEALOUS APPLICATION OF THE
STATE-LAW PRINCIPLE THAT COURTS
SPEAK ONLY THROUGH THEIR JOURNAL
ENTRIES VIOLATES THE DUE PROCESS
CLAUSE.
A.

The principle that courts speak only
through their journal entries does not
permit a reviewing court to ignore plain

27

legal errors made in pronouncements
from the bench and not disavowed via
subsequent journal entry.
1.The court of appeals also reversibly erred by
concluding that the trial court’s stated intentions to
imply an incorrect legal standard and to impose an
impermissible burden upon Veronica were not
reversible error because “a court speaks only through
its journal entries, and not through mere oral
pronouncements.” Pet. App. A‘8a at ]{ 12. The court
of appeals reasoned that, because the trial court’s
most egregious misstatements of the law occurred
from the bench rather than in a journalized writing,
they were unreviewable and thus could not constitute
reversible error. See id.
2. The principle that “a court speaks only through
its journal entries” simply means that court orders
only attain the force of law once they are written and
journalized.17 But courts of appeals, with some
frequency, distort this principle from one that
ensures clarity and finality—and,
therefore,
accountability—in trial court proceedings into an
excuse to avoid reviewing significant aspects of trialcourt proceedings altogether. Indeed, a number of
courts of appeals have added their own corollary to
the courts-speak-through-their-journals principle
that radically changes its meaning and has never
been endorsed by this Court. These courts have
appended to the courts-speak-through-their-journals
principle the misguided rule that they “will not
review” “ruling(s)” that are not “expressly set forth”
in the journalized judgment. Karmasu v. Bendolf, 4th
17 See In re Guardianship of Hollins, 114 Ohio St.3d 434 (2007);
In re A.W., 2020-0hio-1457; Johnson v. Sloan, 154 Ohio St. 3d
476 (2018).

28
Dist. Scioto No. 93CA2160, 1994 Ohio App. LEXIS
4545, at *8 (Sep. 28, 1994)18
3. The Tenth District adhered to this perversion of
the courts-speak-through'their-journals principle in
this case. Here, the trial court made abundantly
clear in plain statements from the bench what
standards and burdens it would apply in analyzing
the parties’ competing parenting claims. And though
it did not make the same pronouncements in writing
in its journalized decision, it is nevertheless clear
that those same standards and burdens served as the
backdrop for the trial court’s entire decision-making
process. The court of appeals ignored the trial court’s
unequivocal statements from the bench by invoking
the
courts-speak-only-through-their-journals
principle and abdicating its responsibility to review
the trial court proceedings as a whole. See, e.g.,
Joyce v. Gen. Motors Corp., 49 Ohio St.3d 93, 551
N.E.2d 172 (1990), paragraph one of the syllabus
(“the reviewing court must examine the entire entry
and proceedings when it is in the interest of justice to
ascertain the grounds upon which a judgment is
rendered”).
This Court should grant review.

18 See also, e.g., State v. Collins, No. 94CA1639, 1995 Ohio App.
LEXIS 4409, at *25 (Ct. App. Sep. 22, 1995) (“An appellate court
will not, ordinarily, review the correctness of a statement made
in the courtroom unless that statement was carried into the
court’s judgment entry.”); Buckeye Telesystem, Inc. v. MedCorp,
Inc., 6th Dist. Lucas No. L-05-1256, 2006-Ohkr3798, f 17 (“[A]n
appellate court will not ordinarily review the substantive or
procedural content of a courtroom colloquy which was not
carried over into the judgment entry.”); State v. Blalock, 8th
Dist. Cuyahoga No. 80599, 2002-Ohkr3637, K 19 (same).

29

CONCLUSION
For the foregoing reasons, I, Veronica V. Badescu,
pro-se Petitioner and mother of the now 6-year old
M.B., respectfully ask this Court to grant the petition
for a writ of certiorari.
Respectfully submitted,

Veronica V. Badescu
P.O. Box 86621
San Diego, CA 92138
(703) 994-3036
wbadescu@hotmail.com
April 26, 2021

SEE ATTACHED
NOTARIZATION

ACKNOWLEDGEMENT
A notary public or other officer completing this certificate verifies only the identity of the individual who signed the document
to which this certificate is attached, and not the truthfulness, accuracy, or validity of that document.

State of California
County of Los Angeles

On

)
)

April 26, 2021

personallyappeared

before me

Clifton N. Star

, Notary Public,

Veronica V. Badescu -

who proved to me on the basis of satisfactory evidence to be the person(s) whose name(s) is/are subscribed to the
within instrument and acknowledged to me that he/she/they executed the same in his/her/their authorized
capacity(ies), and that by his/her/their signature(s) on the instrument the person(s), or the entity upon behalf of which
the person(s) acted, executed the instrument.
I certify under PENALTY OF PERJURY under the laws of the State of California that the foregoing paragraph is true and
correct.
1
I

CLIFTON N. STAR
I
Notary Public - California
|
Los Angeles County
1
\|>SS-JV
Commission ft 2283133
My Comm.'Expires Mar 28. 2023

Signature:
Notary Public

(Seal)

Document Information:
Date:
Title:

April 26, 2021
Petition for a Writ of Certiorari

Notes:

m

Security seal embossed on both attached document and
this Acknowledgement form.
(REV.150504)

I

